U.S. Department of Justice
Office of the Solicitor General
Washington, D.C. 20530

May 4, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Re:

Dario Reyes-Torress v. United States of America,
S.Ct. No. 20-7714

Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on April 5,
2021, and placed on the docket on April 13, 2021. The government’s response is due on May
13, 2021.
We respectfully request, under Rule 30.4 of the rules of this Court, an extension of time
to and including June 14, 2021, within which to file the government’s response.
This extension is requested to complete preparation of the government’s response, which
was delayed because of the heavy press of earlier assigned cases to the attorneys handling this
matter.

Sincerely,
Elizabeth B. Prelogar
Acting Solicitor General
cc: See Attached Service List

20-7714
REYES-TORRES, DARIO
US

PHILIP J. LYNCH
LAW OFFICES OF PHIL LYNCH
17503 LA CANTERA
PARKWAY
STE. 104-623
SAN ANTONIO, TX 78257
210-883-4435
LAWOFFICESOFPHILLYNCH@SATX.RR.COM

